                                                             NATIONAL SCIENCE FOUNDATION
                                                              OFFICE OF INSPECTOR GENERAL
                                                                OFFICE O F INVESTIGATIONS

                                                     CLOSEOUT MEMORANDUM

Case Number: Closeout for A020lj0033
                                                                                                         11           Page 1 of 1



      The complainant1alleges that the abstract, portions of the introduction, and the experimental design of a recently published
      research paper2 are related beyond coincidence to an NSF proposal3 submitted by the complainant. As stated in the allegation,
      the complainant (independently of NSF) contacted the subject4to solicit an evaluation of a basic idea that evolved into the
      submitted NSF proposal, subsequently reviewed by panel and not funded. The complainant suggested the subject as a reviewer
      for the proposal. According to the complainant, the recent research paper was published by associates of the subject, but not by
      the subject.




                                                                                                              -
      The complainant's submitted proposal uses a standard experimental design and well-established models (proposal, page 7). The
      initial research in this area was accomplished in 1995, and this work is referenced in both the proposal and in the identified
      research publication.

      The subject did not serve as a reviewer of this NSF proposal. None of the panel reviewers of the proposal were found to have a
      connection with the subject, or to the authors of the identified research publication.

      The authors of the identified research publication have been active as a group in the research area of
              for approximately ten years. The proposal of the complainant includes five references to the previous work of this
      research group. The subject and the authors of the research paper are associates by virtue of joint publication5.

      The identified research publication alleged to duplicate the submitted NSF proposal is a logical iterative effort from past
      published work of this research group. There is no direct overlap of the text or experimental designs in the research publication
      to those described in the submitted NSF proposal of the complainant; the procedures seem standard for the field. The basic goal
      of the proposed research and the research described in the publication is similar, but not especially unique, deriving in both cases
      from the previous work.

      There is no basis for further inquiry, investigation, or action. Accordingly, this case is W d .




      I
        Redacted
        Redacted.
        Redacted
      4
        Redacted
        Redacted


                                Agent                          Attorney                       Supervisor                          AIGI

  Sign / date
